Disclosure Statement for Oriental Master Card®
INTEREST RATES AND INTEREST CHARGES
Annual percentage rate (APR) for
Purchases

18.00%
Those applicants, who at the time of application are identified as active members of the Armed Forces as
established by the Military Lending Act (MLA) or a covered dependent, will be granted a 6.00% annual
percentage rate (APR), for as long as he/she remains on active duty. Once the member of the armed forces
ceases to be in active military service, the special rate granted will be changed to the current applicable annual
percentage rate (APR).

APR for Cash Advances and Balance
Transfers

Penalty Rate and When it Applies

18.00%
Those applicants, who at the time of application are identified as active members of the Armed Forces as
established by the Military Lending Act (MLA) or a covered dependent, will be granted a 6.00% annual
percentage rate (APR), for as long as he/she remains on active duty. Once the member of the armed forces
ceases to be in active military service, the special rate granted will be changed to the current applicable annual
percentage rate (APR).
Up to 30% APR. The Penalty Rate for which you qualify will depend on your creditworthiness, the seriousness
and timing of your default, and other factors provided in your Oriental Cardholder Agreement.
This APR may be applied to your account if you:

Fraudulently or materially misrepresent facts to us.

Make a late payment

Make a payment to us that is not honored by your financial institution.

Go over your credit limit

Fail to comply with the terms of your Oriental Cardholder Agreement.

Become unwillingly or unable to pay your debts to us or to others on time.

File for bankruptcy

Become incapacitated or in the event or your death.

A judgment is rendered against you

Breach of terms of workout or temporary hardship arrangement.
How Long Will the Penalty APR apply? If your APRs are increased for any of these reasons, the Penalty APR
will apply until you make six consecutives minimum payments when due.
This Penalty APR will not apply as long as the cardholder is covered by the provision of the Military Lending Act (MLA).

Paying Interest

For Credit Card Tips from Consumer
Financial Protection Bureau

Your due date is at least 24 days after the close of each billing cycle. We will not charge you interest on
purchases if you pay your entire balance by the due date every month. We will begin charging interest on
Balance Transfers, Cash Advances and Oriental credit card checks on the date of the transaction
To learn more about factors to consider when applying for or using a credit card visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Set-up and Maintenance Fees

Annual Fees
Additional Card Fee
Customers covered by the Military
Lending Act (MLA)

Notice: Some of these set-up and maintenance fees will be assessed before you begin using your card and will
reduce the amount of credit you initially have available. For example, if you are assigned the minimum credit
limit of $250, your initial available credit will be only $228 (or $217 if you choose to have an additional card).
You may still reject this plan, provided that you have not used the Account or paid a fee after receiving a billing
statement. If you do reject the plan, you are not responsible for any fees or charges.
$22 for primary card.
$11 annually (if applicable)
$0

Transaction fees



Balance Transfer Fee
Cash Advance Fee
Foreign Transaction Fee

3% of the total balance transfer
3% of the total cash advance
2% of the total foreign transaction

Late Payment Fees
Returned Credit Card Check Fee
NSF (Non-Sufficient Fund) Fee

Up to $35
Up to $35
Up to $35


Penalty Fees





How We Will Calculate Your Balance: We use average daily balance (including new transactions). See your Oriental Cardholder Agreement for more
details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights provided in you Oriental Cardholder Agreement
Other Fees

Retrieval of items/Request Copy of a Sales Draft

Replacement / Additional Statement

Lost or damaged card

$5
$5
$15

Member FDIC
Effective December 2019
® Master Card is a registered trademark of Master Card International Incorporated

